20-5319

Case NoT

W

W

USCA 5 No. 19-10431
•*

IN THE

7/

SUPREME COURT OF THE UNITED STATES

supreme Court, U.S

FILED

15 2020

JUAN CARLOS AVILA GONZALEZ,
Petitioner,

OFFICE OF THE n colt

vs.

UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Juan Carlos Avila Gonzalez
Reg No. 46958-177
USP Terre Haute
P.0 Box. 33
Terre Haute, IN 47808

>

QUESTION PRESENTED
WHETHER THE FIFTH CIRCUIT APPLIED
THE CORRECT LEGAL STANDARD WHEN
DENIED AVILA'S COA IN THE CLAIM
THAT HE RECEIVED INEFFECTIVE
ASSISTANCE OF COUNSEL BASED ON
FAILURE TO INVESTIGATE HIS MEDICAL
HISTORY AND TO MOVE FOR AN
EXAMINATION OF HIS COMPETENCE TO
WAIVE COUNSEL.

•r n

7..

J

TABLE OF CONTENTS

QUESTION PRESENTED

i

TABLE OF CONTENTS

ii

TABLE OF AUTHORITIES

iii

OPINION BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

2

BACKGROUND

2

RELEVANT FACTS

4

ARGUMENT IN SUPPORT OF GRANTING
THE WRI OF CERTIORARI..................

5

-•Standard of Review

5

- Importance of the legal Argument

6

CONCLUSION

8

CERTIFICATE OF SERVICE

9

APPENDIX

10

ii

S'

TABLE OF AUTHORITIES

Federal Cases
Ayestas v. Davis, Dir. Tex;. Dep’t of Crim. Justice, 584 US 138 (2018)..

5

Buck v. Davis, 137 SCt 759 753 (2017)....................... ...............................

6

Miller-El v. Cockrell, 537 US 322 336 123 SCt 1029 (2003)......................

6

Slack v. McDaniel, 529 US 473 484 120 SCt 1595 LEd 2d (2000).......... .

5

United States v. Avila Gonzalez, 757 F. App'x 353 356, 57 (5th Cir 2018)...

2

Federal Statute
28 USCS § 1254(1)...

2

28 USCS § 2253(C)(2)

2

Fifth Amendment of the United States Constitution

2

Sixth Amendment of the United States Constitution

2

iii

I

A

IN THE
SUPREME COURT OF THE UNITED STATES

JUAN CARLOS AVILA GONZALEZ
Petitioner,
vs .
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT

Petitioner, Juan Carlos Avila Gonzalez respectfully prays
that a writ of issue to review the opinion of the United States
Court of Appeals for the Fifth Circuit issued on March 20, 2020,
denying his Certificate of Appealability.
I. OPINION BELOW
The order of the United States Court of Appeals for the
Fifth Circuit issued on March 20

2020 denying motion for

reconsideration for the denial of a COA, appears in-Appendix 3-4
to this petition.
.Troughout this petition, Avila will make the following reference
A= Appendix.

2

i

II. JURISDICCION
Petitioner seeks review in this Court of the judgment or order
of the United States Court of Appeals for the Fifth Circuit pursuant
to 28 USCS § 1254(1).
III. CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
- 28 USCS § 2253(C)(2)
Fifth Amendment of the United States Constitution
Sixth Amendment of the United States Constitution
IV. STATEMENT OF THE CASE
Following the first denial of Avila's motion to vacate, set
aside or correct sentence, the Fifth Circuit Court of Appeals
remand the case to the district court for an evidentiary hearing
to address the ineffective assistance-claim relating to counsel's
alleged .failure to investigate Avila's competency to waive counsel.
See, United States v. Avila-Gonzalez, 757 F. App'x 353 356, 57
(5th Cir 2018).

At the conclusion of the evidentiary hearing

the district court denied again Avila's 2255 motion.

See Appendix 25.

On February 10, 2020, the Fifth Circuit court denied the
Certificate of Appealability.

See Appendix 1.

Avila moves for

reconsideration and the court denied on March 20, 2020, See
Appendix 3-4.
V. BACKGROUND
This case involves Juan Carlos Avila Gonzalez, who has a long
history of mental problems and substance abuse,

He has been

repeatedly diagnosed as suffering from paranoia, schizophrenia and

1

II

v

other mental problems.

Appendix 6-7.

He is also known to suffer

from delirium and hallucinations which make it hard for him to
separate reality from fiction.

His mental defects have lead him

to attempt to suicide numerous times in his past, which has
resulted in his hospitalizations in psychiatric institutions:
On January 28, 1993, Avila was committed to a psychiatric
hospital in Parral, Chihuahua, Mexico, after having falling
from a second story floor,
skull was fracturated.

As a result of the said fall, Avila

After evaluating Avila a psychiatric wrote

up a report indicating that Avila was demonstrating symptoms of
delirium, it was also reported that Avila also has hallucinations
and say he see all sort of things: skeletons that call him by his
name, dinosaurs that try to stomp on him to squash him, and giant
spiders that try-, to strangle him. Id.

On March 31, 1998, Avila

was again admitted into a psychiatric hospital after attempting
to commit suicide by slitting the veins of his right arm.

Avila

displays mental problems related with schizophrenia, paranoia and
desillusion.

Id.

On April 17, 2009, Avila was committed to a

psychiatric hospital, following a suicide attempt while under the
influence of methamphetamine, he attempted suicide by sliting the
inferior vein of his right testicle.

During this time, Avila

displays symptoms of mental amnesia, does not speak and his gaze
was fixed in vertical position.
for narcotic violations.

Id.

In 2013, Avila was indicted

Being that he is mentally unstable he

cannot defend himself against such allegations,

These are all

facts that his attorneys were aware of, but failed to investigate
his past medical history or bring it to the court's attention.
a result, Avila went to incompetently plea of not guilty waiving

As

3

1

4

n

his right to counsel without of competency examination, which
sadly ended in his receiving a devastating "Life Sentences".
VI. RELEVANT FACTS
Avila informed Christopher Curtis and William Hermesmeyer
of his prior medical history, suicide attempts and substance
abuse.

See Appendix 7.

Avila explodes in an irrational behavior

and attempted suicide in the presence of counsel, his family and
several court spectators.

See Appendix 7-8.

During his

arraignment hearing Avila requested the reading of the indictment
as he did not understand the nature of the charges nor the
proceedings against him.

See Appendix 8.

Counsel Hermesmeyer

suggested that Avila should ask the judge to let him represent
himself.

Id.

Avila was hallucinating and he saw his grandma,

the lady who die several years ago-come and told him that he can
do better than these public defenders and with the assistance
of another prisoner, Avila filed a pro se motion to revoke the
public defender.

Appendix 9. Avila's irrational behavior,

statements and conduct during pretrial hearings, trial, sentencing
and evidentiary hearing reveals an ample and uncontroverted
evidence of his incompetency to understand the proceedings
against him.

See Appendix 9-21.

Finally, despite the overwhelming

evidence of Avila incompetency in the record, the district court
denied his § 2255 motion in its enterity without psychiatric
evaluation.

»

v>

5 •

♦

VII. ARGUMENT IN SUPPORT OF GRANTING
THE WRIT OF CERTIORARI
A document filed pro se is to be liberally construed, and
a pro se complaint, however inartfully pleaded, must be held to
less strigent standards than formal pleadings drafted by lawyers.
See Erickson v. Pardus, 167 LED 2d 1081, 551 U.S (2007).
a). Question Presented.
WHETHER THE FIFTH CIRCUIT APPLIED
THE CORRECT LEGAL STANDARD WHEN
DENIED AVILA'S COA IN THE CLAIM
THAT HE RECEIVED INEFFECTIVE
ASSISTANCE OF COUNSEL BASED ON
FAILURE TO INVESTIGATE HIS MEDICAL
HISTORY AND TO MOVE FOR AN
EXAMINATION OF HIS COMPETENCE TO
WAIVE COUNSEL.
b). Standard of Review.
The United States Supreme Court may review the denial of a
Certificate of Appealability ;("COA") by lower courts,

When lower

courts deny a COA and the court concludes that their reason for
doing so was flawed, the court may reverse and remand so that
the correct legal standard may be applied.
Dir. Tex. Pep11 of Crim. Justice,

See Ayestas v. Davis,

584 US 138 SCt 200 (2018).

In order to obtain a COA, Avila must make a "substantial
showing of the denial of a constitutional right." 28 USC § 2253
(C)(2), and also demonstrate that reasonable jurists would find
the district court's assessment of the constitutional claims
debatable or wrong.

Slack v. McDaniel, 529 US 473 484 120 SCt.

1595 LEd 2d 542 (2000).

In generally assessing the claims for

relief in a COA application, "[T]he question is the debatability

6

5

a

of the underlying constitutional claim, not the resolution of the
debate."

"A petitioner satisfies this standard by demonstrating

that jurist of reason could disagree with the district court's
resolution of his constitutional claims or the jurists could
conclude the issues presented are adequate to deserve encouragement
to

proceed further.

Miller-El v. Cockrell, 537 US 322 336 123

S.Ct 1029 (2003); Buck v. Davis, 137 S.Ct 759 753 (2017)(lnternal
quotation marks and citation omitted).
c). Importance of the Legal argument in support
of this question.
Here, Avila argue that the Fifth Circuit Court of Appeals
did not applied the correct legal standard when denied his COA.
He contends that, in his application for COA he has naked a
substantial showing of the denial of constitutional right
asserting that he received ineffective assistance of counsel because
his attorneys failed to conduct a competency investigation,

Avila

alleges also that he told his lawyers after his arrest that he had
previously attempted suicide and that he was suffering from
paranoia and schizophrenia.

In the past these conditions had

forced him to spend time in a mexican mental hospital, twice
before being charged in this case his mental condition lead him
to attempt; suicide, not including a suspicious fall from a second
story that left his skull cracked.

Avila also attempted suicide

in the courthouse with counsel present after his preliminary
hearing, see Appendix 7-8, the prison put him on suicide watch and
Avila asked counsel to notify the court, his counsel knew about
all this and failed to investigate.

f

7
Avila testimony was corroborated by records from hospital de
Jesus showing that he was hospitalized three times over a period
of several years (from 1993 up to 2009) for schizophrenia, paranoia
and delusions.

See Appendix 6-7.

He included with his motion a

clinical file or "psychiatric hospitalization evidence" that was
readily available to his attorneys upon investigation, but which
he argued his. attorneys never presented to the district court. Id.
Also, Avila submitted several affidavits from his family in support;,
of his claim.

See Appendix 25.

In his affidavits, Avila's

family declares how they witnesses Avila psychotic episode when he
attempted suicide at the conclusion of the preliminary hearing.
On remand, following an evidentiary hearing, the district court
rejected Avila's IAC claim by accepting the testimony of counsel
Curtis and Hermesmeyer expressing that each of them provided
constitutionally effective assistance of counsel to Avila in the
respects related to his competency or anything having to do with
his mental health.

Finding that either of them had any reason to

move for a court-ordered psychiatric evaluation of Avila or his
competency to enter a plea or to waive his right to counsel or to
stand trial.

Stating that even if each of them had informed the

court of all of the things they have testified to that would bear
on Avila's mental state, the court neverthless would have
authorized the Avila represent himself.
In his previous application for COA, see Appendix 5-31, Avila
mantains that reasonable jurists would debate the district court's
rejection of his IAC claim because he has presented an ample and

Tj

8

I

uncontroverted evidence supporting his claim and because he has
established that his counsel's performance was deficient by
failing to perform a competency investigation and therefore
failed to move for a court appointed psychiatric examination causing
him prejudice.

In light of the foregoing, Avila mantains that the

Fifth Circuit applied the wrong legal standard when denied his
COA.

VIII. CONCLUSION

The denial for a COA should be reversed.

Dated on June 15, 2020

RespectffJ]/iy S*fl5mit\e,

Juan Carlos Ay^la Gonzalez
Reg. No/] 4
-177
USP Ter4^Maute
P.0
Terr^ffaute.5 IN 47808

*

9

»

CERTIFICATE OF SERVICE

I Certify that, pursuant to 28 USCS § 1746 a true and correct
copy of the foregoing petition for writ of certiorari was mailed
to the Supreme Court of the United States, 1 First Street NE
Washington DC 20543, and at that same time the petition is served
on opposing counsel, via first class prepaid mail postage, from
the United States Penitentiary Terre Haute by depositing in the
Mailbox (Via certified Legal Mail).

Dated On June 15, 2020

Respectfu

Juan Car
Reg. No./4j59 -111
USP Teyrre JXklite
P.0 Bol
3
Terre/tfaute, IN 47808

